Case: 19-3163

Document: 52-2

Filed: 03/27/2020

Page: 1

(2 of 8)

NOT RECOMMENDED FOR PUBLICATION
File Name: 20a0178n.06
No. 19-3163
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
UNITED STATES OF AMERICA,

)
)
)
)
)
)
)
)
)
)

Plaintiff-Appellee,
v.
MICHAEL BETTS,
Defendant-Appellant.

FILED
Mar 27, 2020
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE
UNITED STATES DISTRICT
THE
COURT
FOR
NORTHERN DISTRICT OF
OHIO

BEFORE: STRANCH, READLER, and MURPHY, Circuit Judges.
I

CHAD A. READLER, Circuit Judge. A police dog alerted officers to the presence of
contraband in Michael Betts’s vehicle. An ensuing search uncovered drugs, a-firearm, and a'loaded
magazine. Following his indictment for drug and firearm crimes, Betts sought to suppress the
evidence discovered in his vehicle, contending that the officers violated his Fourth Amendment
rights by prolonging a routine Terry stop for a drug dog to arrive.

But the surrounding

circumstances of the encounter gave the officers reason to prolong the stop, and the police dog
I

arrived before the officers completed the purpose of the stop. Accordingly, we AFFIRM the
judgment of the district court.

I.

BACKGROUND

S-'

Michael Betts drove his vehicle to a commercial parking lot in Salem, Ohio, early one
November morning. Curious behavior marked the occasion. Betts was in the parking lot at
roughly 1 a.m., when all the adjacent businesses were closed. Betts parked his vehicle in front of

APPENDIX A

j

!

J

Case: 19-3163

Document: 52-2

Filed: 03/27/2020

Page: 2

(3 of 8)

Case No. 19-3163, United States v. Betts
a shop that had been frequently burglarized. Betts’s vehicle blocked the shop’s drive-through
window. And Betts paced around his vehicle, despite chilly middle-of-the-night November
i

temperatures.

/

^ p c,('<';> jp'

(After viewing this episode for more than half an hour, a witness called the police,

identified

Jv himself, and explained what he had seen. \ Officer Donald Paulin and another officer were

Cy Vt

^

VI

i

dispatched to the scene! When they arrived, Paulin pulled behind Betts’s vehicle, turned on his
emergency lights, and ran a check of Betts’s license plate^ Within two minutes, Paulin learned
that the plate was invalid. Paulin also knew that the shop Betts was parked in front of had been
frequently burglarized through the drive-through window Betts was now blocking.
Upon seeing the emergency police lights, Betts re-entered his vehicle. Paulin approached
the vehicle and ordered Betts out. As they spoke, Betts was “sweating profusely” (despite the
frigid temperatures) and “talking a lot.” Betts stated that he had driven to the parking lot to get a
drink from a nearby vending machin^yeThe reportedly had been in the lot for over thirty minutes,
pacing around the vehicle. Betts added that he was looking for an address on Arch Street. But the
address Betts provided did n® t exist on Arch Street in Salem—the Arch Street address Betts was
looking for, Paulin knew, was an established drug area in neighboring Alliance. At this point, the
officers on the scene called for a police dog.
Roughly five minutes after this call, and within eleven minutes of the initial stop, Officer
Michael Garber arrived with his police dog, Simon. Garber took Simon for a first pass around
Betts’s vehicle. As they passed the trunk, Simon snapped his head and increased his sniffing
intensity, an alert behavior to the presence of contraband. During a second pass, Simon again
exhibited alert behavior to the presence of contraband near the trunk.

2

Case: 19-3163

Document: 52-2

Filed: 03/27/2020

Page: 3

Case No. 19-3163, United States v. Betts
Because neither Betts nor anyone else could legally drive the vehicle due to its invalid
license plate, and because the vehicle was blocking a drive-through window, the officers informed
Betts that the vehicle needed to be towed. Paulin in turn agreed to Betts’s request that Betts be
l

allowed to call a tow truck himself to have the vehicle towed to a friend’s house. Betts then spoke
on his cell phone, but he did not call for a truck. By this point, the police dog had exhibited alert

/
/

'i

behavior to the presence of contraband. The officers asked Betts if they could search his vehicle.

\

Betts refused. After calling the local prosecutor for legal guidance, the officers searched the
vehicle without Betts’s consent. They found marijuana, crack cocaine, heroin, multiple cell
phones, a firearm, and a loaded magazine.
Following his ensuing indictment for possession with intent to distribute and felon in
possession of a firearm charges, Betts moved to suppress the evidence found in his vehicle on
Fourth Amendment grounds. The district court denied Betts’s motion to suppress, and a jury
convicted Betts. Betts now appeals the district court’s denial of his motion to suppress.
II.

ANALYSIS

“When reviewing [a] district court’s ruling on a motion to suppress, we review findings of
fact for clear error and legal conclusions de novo.” United States v. Jackson, 682 F.3d 448, 452
(6th Cir. 2012) (citing United States v. Tackett, 486 F.3d 230, 232 (6th Cir. 2007)).
Fourth Amendment Jurisprudence. In recognition of Betts’s Fourth Amendment right to a
“reasonable expectation of privacy,” before a police officer could search Betts or his vehicle, the
officer ordinarily would need to obtain a warrant. See Taylor v. City of Saginaw, 922 F.3d 328,
332-34 (6th Cir. 2019). Paulin, however, did not have a warrant to search Betts or his vehicle.
Today’s case thus turns on the applicability of any exceptions to the warrant requirement.

3

(4 of 8)

Case: 19-3163

Document: 52-2

Filed: 03/27/2020

Page: 4

(5 of 8)

Case No. 19-3163, United States v. Betts
One is the Terry exception. See United States v. Wilson, 506 F.3d 488,494 (6th Cir. 2007).
Under the Terry doctrine, a police officer who has “reasonable suspicion” that criminal activity is
ongoing or about to occur may stop an individual to investigate. See Family Serv. Ass ’n ex rel.
Coil v. Wells Township, 783 F.3d 600, 604 (6th Cir. 2015). Terry stops, though, are limited in
both duration and ^copeNfhe duration is limited to the length of time necessary to investigate the
. underlying reason for the stop. United States v. Stepp, 680 F.3d 651, 661-62 (6th Cir. 2012)
(“When the initial traffic stop has concluded . . . any subsequent prolonging, even de minimis, is
an unreasonable extension of an otherwise lawful stop.” (citing United States v. Everett, 601 F.3d
484, 492 n.9 (6th Cir. 2010))). And the scope is limited to the original purpose of the stop. Id. at
661 (noting that, absent additional reasonable suspicion, “all the officer’s actions must be
‘reasonably related in scope to circumstances justifying the original interference’” (quoting United
States v. Townsend, 305 F.3d 537,541 (6th Cir. 2002))). A routine traffic stop, for example, would
not provide probable cause to justify searching a vehicle for drugs, absent additional
/

<~~-----

considerations.
' I•v

!

One additional consideration is whether the police have probable-cause-that thej/ehicle
contains evidence of criminal activity. United States v. Graham, 275 F.3d 490, 509 (6th Cir. 2001).
A common way to discern evidence of criminal activity is through the nose of a trained canine,
also known as a “dog sniff.” Sec Carter v. Hamaoui, 699 F. App’x 519, 532-33 (6th Cir. 2017)
(citing Florida v. Harris, 568 U.S. 237, 247 (2013)). Because there is no expectation of privacy
in contraband, a routine dog sniff to detect contraband is generally not, by itself, a “search” for
Fourth Amendment purposes. Illinois v. Caballes, 543 U.S. 405, 408-09 (2005). Where a sniff
takes place before completion of the stop’s purpose, the indication of contraband would justify a
search of the vehicle. But where a stop is extended for the sole purpose of performing a dog sniff,

4

Y

Case: 19-3163

Document: 52-2

Filed: 03/27/2020

Page: 5

Case No. 19-31.63, United States v. Betts
an ensuing vehicle search would be in tension with the duration and scope limitations on Terry
stops, and thus unlawful Under the Fourth Amendment. Rodriguez v. United States, 575 U.S. 348,
357 (2015) (“As we said in Caballes and reiterate today, a traffic stop ‘prolonged beyond’ that
point is ‘unlawful.’ The critical question . . . [is] whether conducting the sniff ‘prolongs’—i.e.,
—-adds-tiraeju—‘the stop.’” (quoting Caballes. 543 U.S. at 407 (citation omitted))); see also
'

Hernandez v.-Boles, 949 F.3d 251, 256 (6th Cir. 2020).

)

Application of the Fourth Amendment. Applying these principles to the search of Betts’s
vehicle, we examine each step of the incident to determine whether any of the officers’ actions
violated the Fourth Amendment. See Hamaoui, 699 F. App’x at 532. We “[b]egin at the
beginning.” Lewis Carroll, Alice’s Adventures in Wonderland & Through the Looking-Glass 121
(Annotated Ed. 2000). Paulin testified that, from the moment he arrived on scene, Betts was not
free to leave. That constitutes a seizure—a reasonable person in Betts’s shoes would not have felt
free to leave the scene. See United States v. Campbell, 486 F.3d 949, 954 (6th Cir. 2007).
Was the seizure justified? Under Terry, Paulin must have had reasonable suspicion that
criminal activity was either ongoing or about to occur. In assessing whether the circumstances in
question support a finding of reasonable suspicion, we do not employ “a high bar”; an “officer
needs only ‘a minimal leveljrf objective justification’ for the stop considering the ‘whole picture’
around him.” United States v. Coker, 648 F. App’x 541, 544 (6th Cir. 2016) (citing Navarette v.
California, 572 U.S. 393, 396-97 (2014) and quoting Illinois v. Wardlow, 528 U.S. 119, 123, 127
(2000)). And in close calls, we “review the evidence ‘in the light most likely to support the district

A

court’s decision.’” United States v. Winters, 782 F.3d 289, 301 (6th Cir. 2015) (quoting United
States v. Braggs, 23 F.3d 1047, 1049 (6th Cir. 1994)).

5

(6 of 8)

Case: 19-3163

Document: 52-2

Filed: 03/27/2020

Page: 6

Case No. 19-3163, United States v. Betts
/

Pi

/

7

1' A11 identified tipster provided many indicators establishing

reasonable suspicion to

detain Betts. See Florida v. J.L, 529 U.S. 266, 270 (2000) (noting that

non-anonymous tips are
more reliable than anonymous tips when considering reasonable suspicion). One, Betts was in the
parking lot late at night. United States v. Caruthers, 458 F.3d 459, 467 (6th Cir. 2006) (noting
that late-night activity in a high-crime area is a contextual consideration relevant to the
reasonable
suspicion calculus) (abrogated on other grounds). Two, the surrounding businesses were closed.
United States v. Brignoni-Ponce, 422 U.S. 873,

884 (1975) (noting that officers can “consider the

characteristics of the area in which they encounter a vehicle” for reasonable suspicion putposes).
Three, Betts’s vehicle was m the exact place where prior burglaries occurred. United States v.
Johnson, 267 F. App’x 412, 414 (6th Cir. 2008) (finding that a vehicle routinely parked at a known
drug house was likely to contain individuals associated with drug trafficking th
us contributing to
reasonable suspicion). Four, Betts was at the location for
over thirty minutes. United States v.
Craig, 306 F. App'x 256*257, 262 (6th Cir. 2009) (finding reasonable

suspicion to justify an
investigatory stop based in part on an informant's observation of unusual loitering i
m a parking
lot). And five, Betts was pacing outside on a cold night. United States
v. Bridges, 626 F. App’x
620, 624-25 (6th Cir. 2015) (noting that the defendants
were sitting in a vehicle in the cold
temperature when considering reasonable suspicion). Taken together, thie indicators easily
stupassed the '‘minimal level of objective justification” for Paulin reasonabfy
•

l I

activity, -and thus reasonable suspicion to conduct an

suspect criminal

investigatory stop. Coker, 648 F. App’x at

544 (quoting Wardlow, 528 U.S. at 123). y//

1

w.th the investigatory stop underway, Paulinpmmedrately discovered criminal activity. A
Hr

i

record check revealed that Betts's Itcense plate was invalid. Betts also lacked a valid driver's
license. As Betts was the only one at the scene, it was reasonable to assume he drove the vehicle

6

(7 of 8)

Case: 19-3163

Document: 52-2

Filed: 03/27/2020

Page: 7

.Case No. 19-3163, United States v. Betts
to this location. Paulin thus had probable cause to believe that Betts had committed a crime.
Equally true, because the vehicle could not legally be driven, it needed to be towed. Paulin’s
Terry-based seizure was thus justified in continuing until a tow truck arrived. See Rodriguez, 575
U.S. at 354 (“Authority for the seizure thus ends when tasks tied to the traffic infraction are—or
reasonably should have been—completed.”).
(

That is when the drug dog arrived—after the beginning of the Terry stop and investigation,

but before the tow truck’s arrival. The officers, in other words, did not prolong the duration of the
stop for a dog to arrive .^Rather, the dog arrived during the permissible time and scope of the Terry
stop, while Paulin awaited a tow truck.

That sequencing does not run afoul of the Fourth

Amendment.]
2. Just as the period of time Betts was detained did not run afoul of the Fourth Amendment,
nor did the subsequent search of his vehicle. To conduct a search of a vehicle, law enforcement
officers do not need a warrant—they need only probable cause that the vehicle contains evidence
of criminal activity. Td

if, 922 F.3d at 334 (quoting United States v. Smith, 510 F.3d 641, 647

(6th Cir. 2007)). When a well-trained drug dog indicates the presence of contraband in a vehicle,
police have probable cause to search the vehicle. Hamaoui, 699 F. App’x at 533 (citing Harris,
568 U.S. at 246-47). The facts here satisfy both threshold requirements. Simon, the police dog,
exhibited at least two alert behaviors indicating that the vehicle contained contraband. And Betts,
in his briefing, does not challenge Simon’s training pedigree. Accordingly, no Fourth Amendment
violation occurred.
CONCLUSION
For these reasons, we AFFIRM the j udgment of the district court.

7

1

(8 of 8)

k:

i

J. f

No. 19-3163

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

May 11,2020
DEBORAH S. HUNT, Clerk

UNITED STATES OF AMERICA

)
)
)
)
)
)
)
)
)
)
)
)

Plaintiff-Appellee
v.
MICHAEL BETTS,
Defendant-Appellant.

BEFORE:

ORDER

STRANCH, READLER, and MURPHY, Circuit Judges.

The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Appendix B

